         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Special Report




       Fiscal Year 2006
       Federal Information Security
       Management Act Report

       Status of EPA’s Computer Security Program


       Report No. 2006-S-00008


       September 25, 2006
Report Contributors: 	   Rudolph M. Brevard
                         Neven Morcos
                         William Coker
                         Warren Brooks
                         Sabrena Stewart
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                      OFFICE OF 

                                                                                 INSPECTOR GENERAL



                                      September 25, 2006

MEMORANDUM

SUBJECT:            Fiscal Year 2006 Federal Information Security
                    Management Act Report

TO:                 Stephen L. Johnson
                    Administrator


Attached is the Office of Inspector General’s (OIG’s) Fiscal Year 2006 Federal Information
Security Management Act Report, as prescribed by the Office of Management and Budget
(OMB). This report includes the results of our annual security review and highlights the efforts
to secure and protect the Agency’s information assets.

Although the Agency has made substantial progress to improve its security program, the OIG
identified weaknesses in the Agency’s incident reporting practices. These weaknesses contribute
to (1) the incident reporting program not being fully implemented and (2) all security incidents
not being reported. As a result, the OIG answered “NO” to question 7a in the OMB reporting
template. Also included is Appendix A, which synopsizes the results of our significant Fiscal
Year 2006 information security audits.

In accordance with OMB reporting instructions, I am forwarding this report to you for
submission, along with the Agency’s required information, to the Director, Office of
Management and Budget.

                                                Sincerely,



                                                Bill A. Roderick
                                                Acting Inspector General

Attachment

cc: 	 Assistant Administrator for Environmental Information and Chief Information Officer
      Director, Office of Technology Operations and Planning
      Senior Agency Information Security Officer
                                                                                                                                         Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                                                                                                      Environmental Protection Agency




                                                                                                                                                               Question 1 and 2

1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau,
identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).

                 To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
                 1) Continue to use NIST Special Publication 800-26, or,
                 2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53

                 Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the requirements of law. Self reporting by another Federal agency, for example, a Federal service
                 provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.


2. For each part of this question, identify actual performance in FY 06 by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify the number of systems which have completed the following: have a current certification and accreditation , a
contingency plan tested within the past year, and security controls tested within the past year.

                                                                                                                                                              Question 1                                                                                                       Question 2


                                                                                                                                                                                                                                                                                                               c.
                                                                                                                                                                                                                                                                             b.                   Number of systems for which
                                                                                                                                                                                                                                          a.                  Number of systems for which      contingency plans have been tested
                                                                                                                            a.                                  b.                                   c.                     Number of systems certified and security controls have been tested    in accordance with policy and
                                                                                                                   FY 06 Agency Systems              FY 06 Contractor Systems          FY 06 Total Number of Systems                  accredited              and evaluated in the last year                guidance


                                                                                                                                                                        Number                               Number
Bureau Name                                                                   FIPS 199 Risk Impact Level       Total Number     Number Reviewed Total Number           Reviewed        Total Number         Reviewed        Total Number       Percent of Total   Total Number       Percent of Total    Total Number       Percent of Total
Office of Administrator                                                        High                                         0                    0               0                 0                  0                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Moderate                                     2                    0               0                 0                  2                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Low                                          1                    0               0                 0                  1                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Not Categorized                              0                    0               0                 0                  0                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                            Sub-total                                       3                    0               0                 0                  3                 0                  0              0.0%                   0               0.0%                   0                 0.0%
Office of Air and Radiation                                                    High                                         1                    0               0                 0                  1                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Moderate                                    12                    0               0                 0                 12                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Low                                          6                    0               2                 0                  8                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Not Categorized                              0                    0               0                 0                  0                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                            Sub-total                                      19                    0               2                 0                 21                 0                  0              0.0%                   0               0.0%                   0                 0.0%
Office of Administration and Resource Management                               High                                         0                    0               0                 0                  0                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Moderate                                    10                    0               2                 0                 12                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Low                                          1                    0               0                 0                  1                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Not Categorized                              0                    0               0                 0                  0                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                            Sub-total                                      11                    0               2                 0                 13                 0                  0              0.0%                   0               0.0%                   0                 0.0%
Office of Chief Financial Officer                                              High                                         0                    0               0                 0                  0                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Moderate                                    16                    2               0                 0                 16                 2                  2            100.0%                   2             100.0%                   2               100.0%
                                                                               Low                                          2                    0               0                 0                  2                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Not Categorized                              0                    0               0                 0                  0                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                            Sub-total                                      18                    2               0                 0                 18                 2                  2            100.0%                   2             100.0%                   2               100.0%
Office of Enforcement and Compliance Assurance                                 High                                         1                    0               0                 0                  1                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Moderate                                     8                    0               0                 0                  8                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Low                                          2                    0               0                 0                  2                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Not Categorized                              0                    0               0                 0                  0                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                            Sub-total                                      11                    0               0                 0                 11                 0                  0              0.0%                   0               0.0%                   0                 0.0%
Office of Environmental Information                                            High                                         1                    0               0                 0                  1                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Moderate                                    17                    0               5                 0                 22                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                               Low                                         15                    1               3                 0                 18                 1                  1            100.0%                   1             100.0%                   1               100.0%
                                                                               Not Categorized                              0                    0               0                 0                  0                 0                  0              0.0%                   0               0.0%                   0                 0.0%
                                                                            Sub-total                                      33                    1               8                 0                 41                 1                  1            100.0%                   1             100.0%                   1               100.0%




                                                                                                                                                                       1
Office of General Counsel                                 High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
Office of International Activiities                       High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
Office of the Inspector General                           High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           5   0   0        0    5   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                3   0   0        0    3   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             8   0   0        0    8   0   0   0.0%   0   0.0%   0   0.0%
Office of Prevention Pesticides and Toxic Substances      High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           7   0   0        0    7   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             8   0   0        0    8   0   0   0.0%   0   0.0%   0   0.0%
Office of Research and Development                        High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           8   0   0        0    8   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                6   0   0        0    6   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total            14   0   0        0   14   0   0   0.0%   0   0.0%   0   0.0%
Office of Solid Waste and Emergency Response              High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           5   0   1        0    6   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                4   0   2        1    6   1   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             9   0   3        1   12   1   0   0.0%   0   0.0%   0   0.0%
Office of Water                                           High               1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           8   0   1        1    9   1   0   0.0%   0   0.0%   0   0.0%
                                                          Low                0   0   1        1    1   1   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             9   0   2        2   11   2   0   0.0%   0   0.0%   0   0.0%
Region 1                                                  High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
Region 2                                                  High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           2   0   0        0    2   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             2   0   0        0    2   0   0   0.0%   0   0.0%   0   0.0%
Region 3                                                  High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
Region 4                                                  High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
Region 5                                                  High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           2   0   0        0    2   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             3   0   0        0    3   0   0   0.0%   0   0.0%   0   0.0%
Region 6                                                  High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Moderate           1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
                                                          Low                0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                          Not Categorized    0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%
                                                       Sub-total             1   0   0        0    1   0   0   0.0%   0   0.0%   0   0.0%
Region 7                                                  High               0   0   0        0    0   0   0   0.0%   0   0.0%   0   0.0%




                                                                                         2

                                                                           Moderate                                   1                  0               0                0                 1                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Low                                        0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Not Categorized                            0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                        Sub-total                                     1                  0               0                0                 1                0                0              0.0%                 0               0.0%                  0                  0.0%
Region 8                                                                   High                                       0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Moderate                                   1                  0               0                0                 1                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Low                                        1                  0               0                0                 1                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Not Categorized                            0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                        Sub-total                                     2                  0               0                0                 2                0                0              0.0%                 0               0.0%                  0                  0.0%
Region 9                                                                   High                                       0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Moderate                                   1                  0               1                1                 2                1                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Low                                        0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Not Categorized                            0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                        Sub-total                                     1                  0               1                1                 2                1                0              0.0%                 0               0.0%                  0                  0.0%
Region 10                                                                  High                                       0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Moderate                                   0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Low                                        1                  0               0                0                 1                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                           Not Categorized                            0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                        Sub-total                                     1                  0               0                0                 1                0                0              0.0%                 0               0.0%                  0                  0.0%

                                                                        Sub-total                                  159                   3             18                4               177                 7                3             42.9%                 3             42.9%                   3                  42.9%

Agency Totals                                                               High                                      4                  0               0                0                 4                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                            Moderate                                111                  2             10                 2              121                 4                2             66.7%                 2             66.7%                   2                  66.7%
                                                                            Low                                      44                  1               8                2                52                3                1             33.3%                 1             33.3%                   1                  33.3%
                                                                            Not Categorized                           0                  0               0                0                 0                0                0              0.0%                 0               0.0%                  0                  0.0%
                                                                        Total                                       159                  3             18                 4              177                 7                3             42.9%                 3             42.9%                   3                  42.9%



Comments: The Office of Inspector General (OIG) and the Agency agree on the number of EPA systems. The Agency is reporting 173 FISMA reportable systems and the OIG is reporting 177. The OIG identified four contractor systems that were not included in the Agency’s inventory. Subsequent to the finding, the Agency
included the four systems in its system inventory and categorized the sensitivity of the data in these systems. The Agency did not include the four systems in its final FISMA reporting numbers because the systems are currently being evaluated.




                                                                                                                                                              3

                                                                                                                                                               Question 3



In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.




                                                                          The agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the agency or other organization on behalf
                                                                          of the agency meet the requirements of FISMA, OMB policy and NIST guidelines, national security policy, and agency policy. Self-reporting of NIST Special
                                                                          Publication 800-26 requirements by a contractor or other organization is not sufficient, however, self-reporting by another Federal agency may be sufficient.

                                                                          Response Categories:
                                   3.a.                                         Rarely, for example, approximately 0-50% of the time                                                                                                       - Almost Always, for example, approximately 96-100% of the time
                                                                                Sometimes, for example, approximately 51-70% of the time
                                                                          -     Frequently, for example, approximately 71-80% of the time
                                                                          -     Mostly, for example, approximately 81-95% of the time
                                                                          -     Almost Always, for example, approximately 96-100% of the time
                                                                          -
                                                                          -




                                                                          The agency has developed an inventory of major information systems (including major national security systems) operated by or under the control of such
                                                                          agency, including an identification of the interfaces between each such system and all other systems or networks, including those not operated by or under the
                                                                          control of the agency.

                                                                          Response Categories:
                                   3.b.                                         Approximately 0-50% complete                                                                                                                                      Approximately 96-100% complete
                                                                                Approximately 51-70% complete
                                                                          -     Approximately 71-80% complete                                                                                                                              -
                                                                          -     Approximately 81-95% complete
                                                                          -     Approximately 96-100% complete
                                                                          -
                                                                          -




                                   3.c.                                   The OIG generally agrees with the CIO on the number of agency owned systems.                                                                                                                                 Yes




                                                                          The OIG generally agrees with the CIO on the number of information systems
                                   3.d.                                   used or operated by a contractor of the agency or other organization on behalf of   the agency.                                                                                                              Yes




                                   3.e.                                   The agency inventory is maintained and updated at least annually.                                                                                                                                            Yes




                                   3.f.                                   The agency has completed system e-authentication risk assessments.                                                                                                                                           Yes




Comment: 3.a. Based on OIG work done to supplement FY 2006 FISMA, we found that the Agency needs to improve process for identifying and monitoring contractor systems.
:




                                                                                                                                                                    4
                                                                                                                                                                 Question 4




Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the following statements reflect the status in your agency by choosing from the responses provided in the
drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

        Rarely, for example, approximately 0-50% of the time
        Sometimes, for example, approximately 51-70% of the time
-       Frequently, for example, approximately 71-80% of the time
-       Mostly, for example, approximately 81-95% of the time
-       Almost Always, for example, approximately 96-100% of the time
-
-




                                                                         The POA&M is an agency wide process, incorporating all known IT security weaknesses associated with information systems used or operated by the agency
                                    4.a.                                                                                                                                                                                        - Almost Always, for example, approximately 96-100% of the time
                                                                         or by a contractor of the agency or other organization on behalf of the agency.




                                                                         When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system) develop, implement, and manage POA&Ms for
                                    4.b.
                                                                         their system(s).                                                                                                                                          - Almost Always, for example, approximately 96-100% of the time




                                    4.c.                                 Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their remediation progress.                        - Almost Always, for example, approximately 96-100% of the time




                                    4.d.                                 CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                                                             - Almost Always, for example, approximately 96-100% of the time



                                    4.e.                                 OIG findings are incorporated into the POA&M process.                                                                                                     - Almost Always, for example, approximately 96-100% of the time



                                                                         POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed in a timely manner and receive
                                    4.f.
                                                                         appropriate resources                                                                                                                                    - Almost Always, for example, approximately 96-100% of the time



Comment: 4.e.




                                                                                                                                                                      5
                                                                                                                                                                      Question 5




OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation process, including adherence to existing policy, guidance, and standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security
Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This includes use of the FIPS 199 (February, 2004), “Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated
NIST documents used as guidance for completing risk assessments and security plans .




                                                                            Assess the overall quality of the Department's certification and accreditation process.

                                                                            Response Categories:
                                                                                  Excellent
                                                                                  Good                                                                                                                                                      - Satisfactory
                                                                            -     Satisfactory
                                                                            -     Poor
                                                                            -     Failing
                                                                            -
                                                                            -



Comments: EPA has sufficiently published C&A policies. However, we found the Agency's overall processes for implementing C&A policies and procedures need improvement. Proior audit work identified major applications without up-to-date authorizations to operate, risk assessments, and other key security documents.




                                                                                                                                                                          6
                                                                             Section C: Inspector General. Question 6, 7, 8, and 9.

                                                                                       Environmental Protection Agency


                                                                                                  Question 6

            Is there an agency wide security configuration policy?
    6.a.                                                                                                                                                               Yes
            Yes or No.

            Comments:



            Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy. Indicate whether or not any agency
   6.b.
            systems run the software. In addition, approximate the extent of implementation of the security configuration policy on the systems running the software.




                                                                                                                                 Approximate the extent of implementation of the security configuration policy
                                                                                                                                 on the systems running the software.

                                                                                                                                 Response choices include:
                                                                                                                                 - Rarely, or, on approximately 0-50% of the

                                                                                                                                 -systems running
                                                                                                                                    Sometimes,    this
                                                                                                                                               or on   software
                                                                                                                                                     approximately 51-70% of

                                                                                                                                 -the systems running
                                                                                                                                    Frequently,        this software 71-80% of
                                                                                                                                                or on approximately
                                                            Addressed in agencywide
Product                                                             policy?                  Do any agency systems run this      -the systems
                                                                                                                                    Mostly,    running
                                                                                                                                            or on      this software
                                                                                                                                                  approximately  81-95% of the
                                                                                                       software?
                                                                                                                                 systems
                                                                                                                                 - Almostrunning
                                                                                                                                          Always,this software
                                                                                                                                                  or on approximately 96-100% of the systems running this
                                                                     Yes, No,                                                    software
                                                                      or N/A.                              Yes or No.

           Windows XP Professional
                                                                       Yes                                    Yes
           Windows NT
                                                                       Yes                                    Yes
           Windows 2000 Professional
                                                                       Yes                                    Yes
           Windows 2000 Server
                                                                       Yes                                    Yes
           Windows 2003 Server
                                                                       Yes                                    Yes
           Solaris
                                                                       Yes                                    Yes

           HP-UX
                                                                       N/A                                    No

           Linux
                                                                       Yes                                    Yes

           Cisco Router IOS                                            Yes                                    Yes

           Oracle
                                                                       Yes                                    Yes

           Other. Specify:
Comments: We did not conduct audit work to determine the extent of the Agency's implementation of the above operating systems. The OIG has programmed an operating system review in
its FY07 audit plan.


                                                                                                       7
                                                                                                 Question 7


Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.


             The agency follows documented policies and procedures for identifying and reporting incidents internally.
    7.a.                                                                                                                                                                 No
             Yes or No.

             The agency follows documented policies and procedures for external reporting to law enforcement
    7.b.     authorities.                                                                                                                                               Yes
             Yes or No.
             The agency follows defined procedures for reporting to the United States Computer Emergency Readiness
    7.c.     Team (US-CERT). http://www.us-cert.gov                                                                                                                     Yes
             Yes or No.
Comments: EPA has established Agency-wide policies and procedures for reporting security incidents. However, we found in supplementing our FY 2006 FISMA audit that EPA needs to
take further steps to (1) implement its incident handling program to ensure all violations are consistently reported; (2) develop and train personnel on local incident reporting procedures; (3)
implement its centralized virus/spyware/malware reporting system, and (4) make security trend information available. We plan to issue a separate report on EPA's incident reporting practices
in November 2006.

                                                                                                 Question 8

             Has the agency ensured security training and awareness of all employees, including contractors and those
             employees with significant IT security responsibilities?

             Response Choices include:
             - Rarely, or, approximately 0-50% of employees have sufficient training
     8        - Sometimes, or approximately 51-70% of employees have sufficient training                                          - Almost Always, or approximately 96-100% of employees have sufficient training
              - Frequently, or approximately 71-80% of employees have sufficient training
              - Mostly, or approximately 81-95% of employees have sufficient training
              - Almost Always, or approximately 96-100% of employees have sufficient training




                                                                                                 Question 9



             Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness training,
     9       ethics training, or any other agency wide training?                                                                                                        Yes
             Yes or No.

Comments:




                                                                                                       8
                                                                                      Appendix A

                 Summary of Significant Fiscal 2006 

                     Security Control Audits 


During Fiscal Year 2006, EPA’s Office of Inspector General (OIG) initiated numerous audits of
EPA’s information technology security program and information systems. The following
summary synopsizes key objectives and findings. Copies of all final reports are located on the
OIG’s Internet site at http://www.epa.gov/oig/publications.htm.

1. EPA Could Improve Its Information Security by Strengthening Verification and
Validation Processes, Report No. 2006-P-00002, October 17, 2005

We found that program offices had not effectively implemented processes to comply with
Federal and EPA requirements related to information security. We found major applications
without (1) adequate certification and accreditation, (2) contingency plans or testing of the plans,
and (3) a process to monitor for known security vulnerabilities. As such, all security control
deficiencies are not reported in EPA’s Plans of Action and Milestones system. EPA could have
discovered these security deficiencies had it implemented processes to verify and validate
offices’ compliance with established Federal and Agency requirements. Therefore, the Chief
Information Officer is not receiving timely and accurate information with which to plan,
implement, evaluate, and report EPA’s information technology security status and security
remediation activities to the Office of Management and Budget.

2. EPA Could Improve Physical Access and Service Continuity/Contingency
Controls for Financial and Mixed-Financial Systems Located at its Research
Triangle Park Campus, Report No. 2006-P-00005, December 14, 2005 W

The OIG contracted with KPMG, LLP, to audit physical access controls and service
continuity/contingency planning controls for select financial and mixed-financial systems
hosted at EPA’s Research Triangle Park campus. KPMG found that controls needed to be
improved in areas such as visitor access to facilities, use of contractor access badges, and
general physical access to the National Computer Center, computer rooms outside the Center,
and media storage rooms.

Controls also needed improvement in areas such as completing a business impact analysis,
application contingency plans, authorizing to move backup data between key facilities, and
environmental controls. In many cases, EPA has in place compensating controls that help reduce
the risk of the above issues. However, KPMG believes that controls can be improved to further
reduce the risks.




                                               9

3. 	Information Security Series: Security Practices

We evaluated the information security practices of five Agency program offices. For each
selected application, we evaluated the following security controls: certification and accreditation
practices, application contingency plans, and processes used to test and evaluate security
controls. Although the EPA offices complied with many of the reviewed security requirements,
they needed to improve information security practices to ensure that (1) key security documents
are kept current whenever the system undergoes a major modification or significant change in
processing and (2) risk assessments and contingency plans are developed and tested in a timely
manner. EPA offices could improve processes to ensure production servers are actively
monitored for known security vulnerabilities.

We issued the following five reports under this series:

   ¾	 Integrated Contract Management System, Report No. 2006-P-00010, January 

      31, 2006 

   ¾ Comprehensive Environmental Response, Compensation, and Liability 

      Information System, Report No. 2006-P-00019, March 28, 2006 

   ¾ Integrated Compliance Information System, Report No. 2006-P-00020, March 

      29, 2006 

   ¾ Safe Drinking Water Information System, Report No. 2006-P-00021, March 30, 

      2006 

   ¾ Clean Air Markets Division Business System, Report No. 2006-P-00024, May 4, 

      2006 


4. Controls over Mainframe System Software

The overall objective was to determine the effectiveness of information system controls over the
configuration of, access to, and modification of mainframe system software (including all
operating systems, utilities, and security software) residing at the EPA’s National Computer
Center. We plan to issue the final report in October 2006.

5. Management Controls over Contractor-owned Systems that Contain EPA Data
and Incident Reporting

We sought to determine whether EPA defined security requirements for contractor owned
systems that collect information on EPA’s behalf. We also sought to determine whether EPA
offices identified and reported all security incidents to EPA’s Computer Security Incident
Response Capability, which is EPA’s computer security incident reporting process. We plan to
issue the final report in November 2006.




                                              10 

                                                                                Appendix B

                                    Distribution
Office of the Administrator
Acting Assistant Administrator for Environmental Information and Chief Information Officer
Agency Followup Official
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                           11 

